No. 20-319

In the
Supreme Court of the United States
COMCAST CORPORATION AND COMCAST CABLE
COMMUNICATIONS MANAGEMENT, LLC,
Petitioners,
V.

VIAMEDIA, INC.,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
BRIEF FOR NCTA – THE INTERNET &
TELEVISION ASSOCIATION AS AMICUS CURIAE
IN SUPPORT OF PETITIONERS

RICK C. CHESSEN
NEAL M. GOLDBERG
NCTA – THE INTERNET &
TELEVISION ASSOCIATION
25 Massachusetts Ave., NW
Suite 100
Washington, DC 20001

MATTHEW A. BRILL
Counsel of Record
MATTHEW T. MURCHISON
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
matthew.brill@lw.com

Counsel for Amicus Curiae

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ...................................... ii
INTEREST OF AMICUS CURIAE ............................1
INTRODUCTION
AND
SUMMARY
OF
ARGUMENT ..........................................................2
ARGUMENT ...............................................................4
I. The Legal Questions at Issue Should Not Have
Required the Seventh Circuit To Opine on
Interconnects Generally ........................................4
II. Interconnects Are Procompetitive, and the
Seventh Circuit Erred in Finding Otherwise .......5
A. Interconnects
Provide
Substantial
Procompetitive Benefits .................................5
B. The Seventh Circuit’s Suggestion That
Participant-Operated Interconnects Are
Anticompetitive Is Unfounded and
Mistaken .........................................................7
CONCLUSION ..........................................................11

ii
TABLE OF AUTHORITIES
Page(s)
CASE
Broadcast Music, Inc. v. Columbia
Broadcasting System, Inc.,
441 U.S. 1 (1979) ....................................................8
OTHER AUTHORITY
Federal Trade Commission and
Department of Justice, Antitrust
Guidelines for Collaborations Among
Competitors (Apr. 2000),
https://www.ftc.gov/sites/default/files
/documents/public_events/jointventure-hearings-antitrustguidelines-collaboration-amongcompetitors/ftcdojguidelines-2.pdf ..............8, 9, 10

INTEREST OF AMICUS CURIAE1
NCTA – The Internet & Television Association is
the principal trade association of the U.S. cable
television industry. Its members include owners and
operators of cable television systems serving nearly
80 percent of the nation’s cable television customers,
as well as more than 200 video programming
networks. Most relevant to this case, NCTA is the
main trade association for cable operators, which
jointly sell ad inventory through advertising
“interconnects” on behalf of multichannel video
programming distributors (MVPDs) in a designated
market area.
NCTA has first-hand familiarity with the
procompetitive benefits of interconnects for MVPDs,
advertisers, and video subscribers. By expanding
customer access while decreasing transaction costs,
interconnects benefit both sides of the cable
advertising marketplace.
The Seventh Circuit’s
opinion, cited in the Petition Appendix at 1a–144a,
initially acknowledges the procompetitive benefits of
interconnects even as it notes that their legality is not
at issue in this case, but then it goes on to express
doubt on their legality.
The Seventh Circuit’s
misportrayal of interconnects muddies the analytical
waters of this case, interjecting irrelevant and
mistaken dicta that underscore the decision’s clear
legal errors. NCTA submits this brief to help clear up
1

The parties have consented in writing to the filing of this
brief, and received timely notice of the intent to file. No counsel
for a party authored this brief in whole or in part; and no such
counsel, any party, or any other person or entity—other than
amicus curiae and its counsel—made a monetary contribution
intended to fund the preparation or submission of this brief.

2
any confusion about the nature and import of these
underlying issues and encourages the Court to grant
certiorari to consider the important legal questions
identified by Comcast in its Petition.
INTRODUCTION AND
SUMMARY OF ARGUMENT
Comcast’s Petition amply demonstrates that the
Seventh Circuit’s decision below warrants the Court’s
review. The Seventh Circuit made two fundamental
errors—in (1) holding that a refusal-to-deal claim
under § 2 of the Sherman Act may proceed despite the
presence of valid business justifications for the
refusal, and (2) allowing the plaintiff to avoid the
limitations on a refusal-to-deal claim by reframing it
as some other form of anticompetitive conduct, such
as tying. As the Petition shows, these determinations
conflict with multiple decisions of this Court and
other Circuits.
Adding to these errors, the Seventh Circuit’s
tangential discussion of the nature of interconnects
muddied its consideration of the legal questions
actually presented in this case. While a generalized
analysis of interconnects is not necessary to resolve
the two pleading-stage questions of pure antitrust law
that this case presents, the inherently procompetitive
nature of interconnects further undercuts the
Seventh Circuit’s holding that a duty to deal was
adequately pled in this case.
As the Petition explains, interconnects are
collaborations among MVPDs that pool cable
advertising inventory in a particular geographic
region (Designated Market Area, or DMA) to create a
convenient “one-stop shop” through which advertisers
can reach every viewer of a particular network at a

3
particular time, no matter which MVPD serves that
viewer. This unified point of sale saves advertisers
from having to deal separately with each individual
MVPD. Interconnects also promote efficiency and
eliminate redundancy among member MVPDs
through the use of shared infrastructure; traffic and
billing systems; and research, marketing, sales, and
technical personnel. The practice in nearly every
DMA has long been for the largest MVPD to manage
the interconnect, because that entity typically is best
positioned to provide the necessary facilities, systems,
and personnel and to take advantage of existing
relationships with advertisers.
The Seventh Circuit apparently assumed that
interconnects bring competing sellers of ad space
under one roof. That is wrong. Advertisers do not
choose among MVPDs in a given DMA—they want to
do business with all of them. Whether an advertiser
is targeting an entire DMA or a more localized zone,
its goal is typically to get its ads into as many
households as possible. There is thus no substitution
among different MVPDs’ advertising slots, and hence
no competition, because advertisers generally seek to
reach all households in whatever geographic area
they are targeting.
MVPD offerings are
fundamentally
complements
that
expand
opportunities to advertise in a DMA, and that is why
interconnects are decidedly procompetitive.
The Seventh Circuit panel initially acknowledged
the procompetitive nature of interconnects and made
clear that, in any event, their legality was not before
the court in this case. Quite right. Nevertheless, the
court later suggested—without relevant evidence or
briefing from the parties—that interconnects
operated
by
a
participating
MVPD
are

4
anticompetitive.
Reaching that conclusion sua
sponte, and then apparently relying on it as a basis to
reverse the district court’s judgment, was error.
ARGUMENT
I. THE LEGAL QUESTIONS AT ISSUE
SHOULD NOT HAVE REQUIRED THE
SEVENTH
CIRCUIT
TO
OPINE
ON
INTERCONNECTS GENERALLY
Comcast’s Petition presents two questions:
(1) whether the Seventh Circuit erred in holding that
a refusal-to-deal claim under § 2 of the Sherman Act
may proceed despite the presence of valid business
justifications for the refusal, and (2) whether the
Seventh Circuit erred in allowing a plaintiff to avoid
the limitations on a § 2 refusal-to-deal claim by
reframing it as a tying claim. Pet. at i. Nothing about
those questions—indeed, nothing in Viamedia’s
complaint—turns on whether interconnects are
anticompetitive.
Comcast forthrightly acknowledges that it
declined to renew its contract with Viamedia, Pet. 6,
and the Seventh Circuit held that Comcast’s valid
business justification—improving efficiency by
removing a middleman—was insufficient to warrant
dismissal of the refusal-to-deal claim, Pet. App. 56a–
57a.
Reviewing this pleading-stage question of
antitrust law requires no deeper inquiry into the
workings of the cable television industry than that,
and certainly did not require the Seventh Circuit to
opine on interconnects more generally.
The tying question is, if anything, even cleaner.
Viamedia conceded that any injury it suffered flowed
from Comcast’s refusal to deal, and thus that there

5
was no separate source of harm from the alleged tie.
Pet. 27. The Seventh Circuit saw no problem with
this, holding that “a tying claim does not fail as a
matter of law simply because it was implemented by
refusing to deal with an intermediary.” Pet. App. 81a.
The question is again one of pure antitrust law: can
a plaintiff double-dip by piggybacking a redundant
tying claim on top of a refusal-to-deal claim, or not?
This Court can, and should, resolve these two
questions solely on the law—without concerning itself
with, or lending any credence to, the Seventh Circuit’s
misguided skepticism of the procompetitive nature of
interconnects.
II. INTERCONNECTS ARE PROCOMPETITIVE,
AND THE SEVENTH CIRCUIT ERRED IN
FINDING OTHERWISE
In all events, contrary to the Seventh Circuit’s
assumption that participant-led interconnects
warrant “skepticism” and that reliance on that
arrangement here “weigh[s] against Comcast,” Pet.
App. 92a–93a, the manifestly procompetitive nature
of interconnects (irrespective of who manages them)
should have, if anything, weighed in Comcast’s favor.
A.

Interconnects
Provide
Procompetitive Benefits

Substantial

As both the district court and the Seventh Circuit
recognized,
interconnects
are
by
design
procompetitive, efficiency-enhancing collaborations
that lower costs for both MVPDs and advertisers and
increase the value of cable advertising.
That
observation applies with equal force when an
interconnect is operated by a participating MVPD—
as is the case with almost all interconnects. These

6
collaborations ultimately increase consumer welfare
and should be viewed as presumptively beneficial,
contrary to the musings of harm voiced in the Seventh
Circuit’s opinion.
An interconnect is a one-stop shop where
advertisers can purchase cable ad spots on a DMAwide basis instead of an MVPD-specific basis. Before
interconnects were formed, an advertiser could easily
reach the entire regional audience of any broadcast
television station, but to reach the whole audience of
a cable network the advertiser would have to
negotiate and contract separately with each MVPD
that served customers in that DMA. See Pet. App.
12a. “[M]any advertisers found [this] difficult, if not
impossible.” Id. at 292a (Am. Compl. ¶ 36).
Hindered by cost and complexity, cable
advertising could not compete effectively against
broadcast advertising. Advertisers want to reach as
many viewers as possible within a DMA, see id. at
15a, so ad spots offered by different MVPDs for the
same cable channel spots are complementary goods,
not substitutes. As a result, MVPDs generally do not
compete with each other for advertisers. They instead
compete against other forms of advertising: broadcast
television most directly, but also radio, print, and
Internet ads. The difficulty of effectively reaching
entire geographic markets through MVPDs
historically made it a disfavored option for many
advertisers.
Interconnects solved that problem by pooling
together the ad inventory of participating MVPDs to
provide a single point of sale to advertisers seeking
access to video subscribers across an entire DMA. By
purchasing
advertising
space
through
an
interconnect, an advertiser can simply select its

7
channel and time slot and rest assured that its
advertisement will appear for every viewer
throughout the DMA who subscribes to any
participating MVPD. See Pet. App. 12a. And
efficiency gains are not limited to improved customer
access; interconnects also decrease MVPD costs by
eliminating the need for redundant facilities,
systems, and personnel. See id. at 13a. This
collaborative approach allows cable advertising to
match the convenience of broadcast advertising—
increasing its value to advertisers, expanding the
availability of robust advertising channels, and
introducing new competitive pressure to the broader
television advertising market. See id. at 12a–14a.
Given their core procompetitive nature, interconnects
should receive favorable treatment by the courts.
B.

The Seventh Circuit’s Suggestion That
Participant-Operated Interconnects Are
Anticompetitive Is Unfounded and
Mistaken

The Seventh Circuit initially acknowledged that
interconnects are presumptively procompetitive and
that, in any event, their legality is not at issue in this
case. But the court later reversed course and
apparently concluded that participant-operated
interconnects are in fact anticompetitive. Without
the benefit of the full adversarial discussion that this
question would have received had it been part of the
litigation, the court drew mistaken conclusions about
the competitive risks involved. Not only is there no
evidentiary (or even sound theoretical) basis for those
conclusions, the court’s focus on this issue led it to
overcomplicate—and ultimately, incorrectly decide—
the doctrinal questions at issue.

8
At the outset, the Seventh Circuit’s opinion
recognizes that this case involves “no challenge” to the
legality of interconnects in the abstract. Pet. App. 16a
n.4. At the same time, consistent with all the
evidence and analysis set out above, the opinion
acknowledges that interconnects “seem to fit the
model of certain procompetitive cooperative
arrangements among competitors.” Id. (citing Broad.
Music, Inc. v. Columbia Broad. Sys., Inc., 441 U.S. 1
(1979)).
And the opinion expressly notes that
“[w]hether that remains the case when one MVPD
controls an Interconnect is a question not presented
here.” Id.
Despite these (wholly appropriate) comments, the
opinion goes on to find certain “facts” that it claims
reveal participant-operated interconnects to actually
be anticompetitive. See Pet. App. 92a–93a. The net
competitive benefits and legality of interconnects
were not fully briefed or argued by the parties, nor
passed upon by the district court. Rather, the
Seventh Circuit took it upon itself, as a matter of first
impression, to assess the competitive nature of the
participant-operated interconnects involved in this
case by weighing them against the joint Federal
Trade Commission and Department of Justice’s
Antitrust Guidelines for Collaborations Among
Competitors (Apr. 2000), https://www.ftc.gov/sites/
default/files/documents/public_events/joint-venturehearings-antitrust-guidelines-collaboration-amongcompetitors/ftcdojguidelines-2.pdf.
See Pet. App.
92a–93a.
The opinion questions whether those
interconnects meet any of four criteria for
anticompetitive harm laid out in the guidelines, and
then immediately answers—without apparent
analysis—stating only “[c]heck, check, check, and

9
check.” Id. at 93a. These supposed “red flags” led the
court to conclude that “skepticism is now warranted.”
Id. at 92–93a. These were not mere hypothetical
musings; the opinion indicates that they influenced
its ultimate disposition of the case, concluding that
“[t]hese facts weigh against Comcast.” Id. at 93a.
Compounding the Seventh Circuit’s error in
passing judgment on a question neither litigated by
the parties nor necessary to the resolution of the case,
the court’s conclusion is simply wrong on its merits:
participant-operated interconnects offer no greater
anticompetitive risks than other interconnects,
which, as discussed above, are competitively
beneficial.
The opinion suggests that participant-operated
interconnects satisfy four criteria of anticompetitive
harm from the Joint Guidelines: It posits that these
interconnects “[l]imit independent decision making or
combine the control of or financial interests in
production, key assets, or decisions regarding price,
output, or other competitively sensitive variables”;
“[o]therwise reduce the participants[’] ability or
incentive to compete independently”; “facilitate[]
explicit or tacit collusion through facilitating
practices such as the exchange or disclosure of
competitively sensitive information or through
increased market concentration,” Pet. App. 92a–93a
(third alteration in original) (quoting Antitrust
Guidelines § 2.2 at 6); and “[s]uccessfully eliminate[]
procompetitive pre-collaboration conduct, such as
withholding services that were desired by consumers
when offered in a competitive market,” id. (second
alteration in original) (quoting Antitrust Guidelines
§ 3.31, at 12).

10
As an initial matter, it is not clear that the Joint
Guidelines even apply here, because interconnect
members are not competitors in any relevant sense.
Cable operators that participate in an interconnect
typically serve different geographic areas because of
historic franchising practices, and even where
MVPDs compete for retail subscribers (i.e., where
traditional cable operators compete against
overbuilders and DBS providers), they do not compete
for advertisers. That is so because advertisers
generally want to reach as many households as
possible in whatever geographic area they target.
Thus, one MVPD’s ad inventory is not a substitute for
any other’s—an advertiser would want to reach both
MVPDs’ subscribers. Because MVPDs do not compete
for advertiser business, they are not actual or
potential competitors in the ad sales market. See
Antitrust Guidelines § 1.1, at 2. The Seventh Circuit
overlooked this reality and mistakenly assumed that
the Joint Guidelines provide the proper framework to
appraise the competitive merits of interconnects.
In any event, even assuming that interconnects
fall within the scope of the Joint Guidelines, the
opinion offers no explanation—beyond simply quoting
the generic criteria—to show how participantoperated interconnects run afoul of them. Nor does it
point to any characteristics of these interconnects
that would explain its conclusion that participantoperated
interconnects
are
inherently
anticompetitive while the “truly cooperative original
concept of the Interconnects”—which, in the Seventh
Circuit’s view, apparently entails forgoing the
efficiencies of relying on a participating MVPD to
manage the collaboration—remains procompetitive.
Pet. App. 93a. Any ability or incentive to reduce

11
independent decisionmaking and competition,
facilitate collusion, or eliminate procompetitive precollaboration conduct is no different whether an
interconnect is operated by an MVPD participant or
an elected board composed of multiple MVPD
representatives. Neither the plaintiff nor the court
suggested that such anticompetitive flaws generally
characterize interconnects—rightly so.
The
conclusion that participant-operated interconnects
are somehow worse in that regard was an unforced
error, and it should not have played any role in the
Seventh Circuit’s analysis.
*

*

*

CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
RICK C. CHESSEN
NEAL M. GOLDBERG
NCTA – THE INTERNET &
TELEVISION ASSOCIATION
25 Massachusetts Ave., NW
Suite 100
Washington, DC 20001

MATTHEW A. BRILL
Counsel of Record
MATTHEW T. MURCHISON
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
matthew.brill@lw.com

Counsel for Amicus Curiae

October 13, 2020

